                                                            OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 1 of 4) Version 4.0a
               Reporting Entity: Department of Transportation - OIG
             Month Ending Date: 11/30/2009

                                                          Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau         Recovery Act TAFS       Award Type      US Indicator      Total Obligations    Total Gross Outlays      Direct or      Ordering TAFS
                                                                                                                                          Reimbursable
No.
      Department of              (69-0131 2009 \ 2013)                         Y - US            $1,071,165            $817,015              Direct            N/A
      Transportation - OIG       Transportation - OIG -
 1                               Recovery Act
 2
 3
 4
 5
 6
 7
 8
 9
10

                                                Non-Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau       FY 2009 Non-Recovery     Total FY 2009    Total FY 2009   FY 2010 Non-Recovery     Total FY 2010        Total FY 2010
                                        Act TAFS            Obligations     Gross Outlays         Act TAFS            Obligations         Gross Outlays
No.
   Department of Transportation - (69-0130 2009)               $1,569,106      $1,569,106 (69-0130 2010)                             $0               $0
 1 OIG                            Transportation - OIG                                    Transportation - OIG
 2
 3
 4
 5
 6
 7
 8
 9
10




                                                                                                                            DOT OIG Monthly Report Num 9 11-30-09
                                                                          OIG Recovery Act Monthly Report
Monthly Update Report Data (sheet 2 of 4) Version 4.0a
      Reporting OIG: Department of Transportation - OIG
  Month Ending Date: 11/30/2009

                         FTE Working on Recovery
                                                                                                                                Testimonies:
     Fiscal Year           2009                2010                Cumulative
      Newly Hired FTE
                           0.77                 1.38                  2.15                                                    Provided (monthly):     0
         (cumulative):
        FTE Funded by
   Recovery Act Funds      1.54                 6.68                  8.22                                                 Provided (cumulative):     3
         (cumulative):
    FTE Not Funded by
   Recovery Act Funds     15.20                 0.00                 15.20
         (cumulative):

                                                                                                                    Audits / Inspections / Evaluations /
           Complaints                Whistleblower Reprisal Allegations                  Investigations                                                           Training / Outreach
                                                                                                                                  Reviews
          Monthly Data                         Monthly Data                              Monthly Data                          Monthly Data                         Monthly Data
                                                                                                                                                                   Training Sessions
            Received:     10                           Received:      0              Opened (this month):      4            Initiated (this month):   3                                   8
                                                                                                                                                                          Provided:
                                                                                Active (as of the end of the           In Process (as of the end of
                                                       Accepted:      0                                        13                                     6          Individuals Trained:    732
                                                                                                    month):                            the month):

                                                                                                                       Completed Final Published                   Hours of Training
                                                                                         Pending Decision:     6                                      1                                  732
                                                                                                                                Work Products:                            Provided:

                                                                                                                        Priority Interim Published                Outreach Sessions
                                                                                    Closed without Action:     1                                      0                                   8
                                                                                                                                   Work Products:                       Conducted:

                                                                                                                               Unpublished Work
                                                                                 Accepted for Prosecution:     5                                      0
                                                                                                                                      Products*:
                                                                                      Prosecution Denied:    0
                                                                                   Referred for Alternative
                                                                                                             0
                                                                                                Resolution:
 Cumulative Data Since 2/17/2009      Cumulative Data Since 2/17/2009           Cumulative Data Since 2/17/2009     Cumulative Data Since 2/17/2009        Cumulative Data Since 2/17/2009

                                                                                                                       Completed Final Published                   Training Sessions
            Received:     194                          Received:      0             Closed without Action:     1                                      6                                  150
                                                                                                                                Work Products:                            Provided:

                                                                                                                        Priority Interim Published
                                                       Accepted:      0          Accepted for Prosecution:     12                                     0          Individuals Trained:   10,866
                                                                                                                                   Work Products:

                                                                                                                               Unpublished Work                    Hours of Training
                                                                                       Prosecution Denied:     1                                      0                                 10,866
                                                                                                                                       Products:                          Provided:
                                                                                   Referred for Alternative                                                       Outreach Sessions
                                                                                                               1                Cumulative Total:     6                                  131
                                                                                                Resolution:                                                             Conducted:
                                                                                        Cumulative Total:      15


                                                                                                                                                      DOT OIG Monthly Report Num 9 11-30-09
                                                   OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 3 of 4) Version 4.0a
      Reporting OIG: Department of Transportation - OIG
  Month Ending Date: 11/30/2009

       No.                       OTHER TYPES OF SIGNIFICANT ACTIVITIES (Completed/On-Going During Reporting Month)
                     On November 2, the DOT OIG initiated an evaluation of FHWA’s National Review Team. The objective of this audit will
         1           be to evaluate the effectiveness of the FHWA’s National Review Team in conducting national oversight of highway funds
                     and mitigating risks posed by the implementation of ARRA.
                     On November 19, the DOT OIG initiated an audit of FTA’s oversight of the Dulles Corridor Metrorail Project. The
         2           objectives of this audit will be to evaluate the effectiveness of FTA’s oversight of the Dulles Corridor Metrorail Project and
                     assess potential safety concerns.
                     On November 19, the DOT OIG initiated an audit of FAA’s job creation under the American Recovery and Reinvestment
                     Act of 2009 (ARRA). The objectives of this audit are to determine whether (1) Airport Improvement Program and Facilities
         3
                     and Equipment projects funded under ARRA are preserving and creating jobs and (2) the reporting of job data satisfies
                     ARRA requirements.
                     On November 30, 2009, the DOT OIG issued an audit report on the “Department of Transportation’s Implementation of
         4           the American Recovery and Reinvestment Act Continued Management Attention Is Needed To Address Oversight
                     Vulnerabilities.”
         5

       No.                               OTHER TYPES OF SIGNIFICANT ACTIVITIES (Planned for Next Three Months)
                     Issue "ARRA Advisories" to the Department and Congress when we identify vulnerabilities that could impede DOT’s ability
         1
                     to provide effective oversight to ARRA-funded projects and meet new requirements
         2           Continue to monitor for fraudulent schemes in the contracting process.




                                                                                                                      DOT OIG Monthly Report Num 9 11-30-09
                                                                                   OIG Recovery Act Monthly Report


Monthly Update Report Data (sheet 4 of 4) Version 4.0a
  Reporting OIG: Department of Transportation - OIG
   Month Ending 11/30/2009
           Date:

                                                                                      TRAINING ACTIVITIES
                                                                                                                                                  Hours of
                                                                                                                      Length of                   Training                 Presentation    Average
                                                  Target                            Training Location     Date of                   Number of                   Cost of
     No.                Type of Training                       Title of Training                                      Training                   Provided                   with Other    Evaluation
                                                 Audience                              (City, State)      Training                 Participants                 Training
                                                                                                                       (hours)                    (length x                    OIGs         Rating
                                                                                                                                                participants)
                                                            Fraud
                 Fraud Prevention/Awareness                                         Raleigh, North
       1                                      State         Prevention/Awareness                         11/02/2009            1            73             73
                 Training                                                           Carolina
                                                            Briefing
                                                            Fraud
                 Fraud Prevention/Awareness                                         Charlotte, North
       2                                      State         Prevention/Awareness                         11/03/2009            1            62             62
                 Training                                                           Carolina
                                                            Briefing
                                                            Fraud
                 Fraud Prevention/Awareness                                         Los Angeles,
       3                                      Mixed         Prevention/Awareness                         11/03/2009            1            50             50
                 Training                                                           California
                                                            Briefing
                                                            Fraud
                 Fraud Prevention/Awareness                                         Salt Lake City,
       4                                      Mixed         Prevention/Awareness                         11/05/2009            1            15             15
                 Training                                                           Utah
                                                            Briefing
                                                            Fraud
                 Fraud Prevention/Awareness
       5                                      Federal       Prevention/Awareness    Oxford, Alabama      11/13/2009            1            82             82
                 Training
                                                            Briefing
                                                            Fraud
                 Fraud Prevention/Awareness
       6                                      Mixed         Prevention/Awareness    Matteson, Illinois   11/16/2009            1           120            120
                 Training
                                                            Briefing
                                                            Fraud
                 Fraud Prevention/Awareness
       7                                      Mixed         Prevention/Awareness    Dallas, Texas        11/17/2009            1            30             30
                 Training
                                                            Briefing
       8         Anti-trust Training          Federal       Anti-Trust Training     Tampa, Florida       11/18/2009            1           300            300
                                                                                                                       TOTAL               732            732




                                                                                                                                                                                DOt OIG Monthly Report Num 9 11-30-09
                                                                           OIG Recovery Act Monthly Report



                                     OUTREACH ACTIVITIES

                                        Number of
                                      Organizations                                Outreach
          Organization to which                           Description of                            Date of
No.                                   Represented                                Location (City,
           Outreach Provided                                Outreach                               Outreach
                                       at Outreach                                   State)
                                         Session
      Texas Department of                             Discussed TXDOT
1                                                 1                             Fort Worth, TX     11/06/2009
      Transportation                                  Processes
      District of Columbia                            Discussed Recovery
2                                                 1                             Washington, DC     11/10/2009
      Department of Transportation                    Act projects
      District of Columbia                            Discussed Recovery
3                                                 1                             Washington, DC     11/10/2009
      Department of Transportation                    Act projects
      District of Columbia                            Discussed Recovery
4                                                 1                             Washington, DC     11/10/2009
      Department of Transportation                    Act projects
      District of Columbia                            Discussed Recovery
5                                                 1                             Washington, DC     11/10/2009
      Department of Transportation                    Act projects
      District of Columbia                            Discussed Recovery
6                                                 1                             Washington, DC     11/12/2009
      Department of Transportation                    Act projects
      District of Columbia                            Discussed Recovery
7                                                 1                             Washington, DC     11/12/2009
      Department of Transportation                    Act projects
                                                      Discussed Recovery
      Indiana Office of Inspector
8                                                 1   Act audits conducted by   Indianapolis, IN   11/16/2009
      General
                                                      the Indiana OIG




                                                                                                                DOt OIG Monthly Report Num 9 11-30-09
